<html>
<title> - ROUNDTABLE: CONTINUITY OF SENATE. OPERATIONS AND REMOTE VOTING IN TIMES OF CRISIS</title>
<body><pre>[Senate Hearing 116-297]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 116-297

                     CONTINUITY OF SENATE OPERATIONS AND 
                       REMOTE VOTING IN TIMES OF CRISIS

=======================================================================

                               ROUNDTABLE

                               BEFORE THE

                PERMANENT SUBCOMMITTEE ON INVESTIGATIONS

                                 OF THE

                              COMMITTEE ON
                         HOMELAND SECURITY AND 
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS


                             SECOND SESSION

                               ----------                              

                             APRIL 30, 2020

                               ----------                              

        Available via the World Wide Web: http://www.govinfo.gov

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
40-791 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------
      
        

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin, Chairman
ROB PORTMAN, Ohio                    GARY C. PETERS, Michigan
RAND PAUL, Kentucky                  THOMAS R. CARPER, Delaware
JAMES LANKFORD, Oklahoma             MAGGIE HASSAN, New Hampshire
MITT ROMNEY, Utah                    KAMALA D. HARRIS, California
RICK SCOTT, Florida                  KYRSTEN SINEMA, Arizona
MICHAEL B. ENZI, Wyoming             JACKY ROSEN, Nevada
JOSH HAWLEY, Missouri

                Gabrielle D'Adamo Singer, Staff Director
               David M. Weinberg, Minority Staff Director
                     Laura W. Kilbride, Chief Clerk
                      Thomas Spino, Hearing Clerk


                PERMANENT SUBCOMMITTEE ON INVESTIGATIONS

                       ROB PORTMAN, Ohio Chairman
RAND PAUL, Kentucky                  THOMAS R. CARPER, Delaware
JAMES LANKFORD, Oklahoma             MAGGIE HASSAN, New Hampshire
MITT ROMNEY, Utah                    KAMALA D. HARRIS, California
JOSH HAWLEY, Missouri                JACKY ROSEN, Nevada

            Andrew Dockham, Staff Director and Chief Counsel
                   Amanda Neely, Deputy Chief Counsel
                John Kilvington, Minority Staff Director
                      Kate Kielceski, Chief Clerk
                            
                            
                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Portman..............................................     1
    Senator Carper...............................................     3
    Senator Romney...............................................     5
    Senator Hawley...............................................     5
    Senator Lankford.............................................    24
Prepared statements:
    Senator Portman..............................................    35
    Senator Carper...............................................    37

                               
                               WITNESSES
                        Thursday, April 30, 2020

Martin B. Gold, Partner, Capitol Counsel, LLC....................     6
Lorelei Kelly, Director of Congressional Modernization, Beeck 
  Center for Social Impact and Innovation, Georgetown University.     8
Joshua C. Huder, Ph.D., Senior Fellow, Government Affairs 
  Institute, Georgetown University...............................    10

                     Alphabetical List of Witnesses

Gold, Martin B.:
    Testimony....................................................     6
    Prepared statement...........................................    39
Huder, Joshua C. Ph.D.:
    Testimony....................................................    10
    Prepared statement...........................................    55
Kelly Lorelei:
    Testimony....................................................     8
    Prepared statement...........................................    50

                                APPENDIX

Staff Memorandum.................................................    61
Statement submitted by Seth Barrett Tillman......................    90

 
                    ROUNDTABLE: CONTINUITY OF SENATE.
            OPERATIONS AND REMOTE VOTING IN TIMES OF CRISIS

                              ----------                              


                        THURSDAY, APRIL 30, 2020

                                   U.S. Senate,    
              Permanent Subcommittee on Investigations,    
                    of the Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Subcommittee met by video conference, pursuant to 
notice, at 9:04 a.m., Hon. Rob Portman, Chairman of the 
Subcommittee, presiding.
    Present: Senators Portman, Lankford, Romney, Hawley, and 
Carper.

            OPENING STATEMENT OF CHAIRMAN PORTMAN\1\

    Chairman Portman. Good morning. This roundtable will now 
come to order.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Portman appears in the 
Appendix on page 35.
---------------------------------------------------------------------------
    I hope everyone is staying safe and healthy during these 
unprecedented times. It is certainly an unusual time. 
Overnight, this coronavirus seems to have changed our basic way 
of life in so many ways. Businesses are shuttered and millions 
of Americans are teleworking for the first time; churches and 
schools are closed. Health care workers are working around the 
clock. In the last 5 weeks, based on the numbers I saw this 
morning, it looks like nearly 30 million Americans have filed 
for unemployment. Most believe we are already approaching the 
highest percentage of unemployment since the Great Depression.
    Now more than ever, Americans need to know that their 
leaders are working for them and that they have a voice as we 
work to navigate in this pandemic. In a world where it is no 
longer safe to be within 6 feet of each other, Congress has to 
learn how to adapt.
    This is not the first time we have needed to ensure the 
continuity of Congress, by the way. For example, with the 
nuclear threat during the Cold War, the U.S. Government 
actually constructed a large bunker for Congress should we be 
required to meet outside of Washington. However, this may be 
the first time in the modern era when it is not a physical 
meeting location at risk but, rather, elected officials 
themselves and others we would be in contact with.
    We are a Subcommittee of the Homeland Security and 
Governmental Affairs Committee (HSGAC), which has jurisdiction 
over congressional organization. It is appropriate that we look 
at this issue of how to govern during these sorts of times. 
From that perspective, and while we wait for guidance from the 
Rules Committee on how to conduct more formal hearings 
remotely, today's discussion is an attempt to move Congress 
forward in times of crisis when we cannot meet in person. It 
seems fitting that our topic for today should be remote 
proceedings in Congress, including remote voting. Today our 
gathering itself is really part of our case. This is, as I 
understand it, the first time we have been able to do this in 
the U.S. Congress, certainly in the Senate. We want to show 
that it is possible to have a hearing without physically being 
in a hearing room. We are told this is a first for the U.S. 
Senate.
    In my view, remote congressional proceedings should never 
be the norm. It should be limited to times of true nationwide 
emergencies and only when it is not feasible for Senators to be 
in the same place. Any authorization to proceed remotely, 
whether it is Committee meetings, debates, or votes, should be 
limited in duration, and any extension of such an order should 
require a vote by the entire Senate. Our goal should be to 
bring both our country and our Congress back to work in person 
as soon as it is safely possible. But there are times when that 
is not possible.
    These principles are outlined in the bipartisan remote 
voting resolution that I introduced with Senator Dick Durbin 
last month. Specifically, the resolution allows the Majority 
and Minority Leaders to jointly agree to put in place a 
temporary voting arrangement for remote voting in times of an 
extraordinary crisis. But after 30 days, Senators would have to 
vote to continue to allow that remote voting; otherwise, the 
temporary mandate would expire.
    Today our Subcommittee is releasing a report containing 
both a legal analysis and technical security recommendations 
for remote voting and remote governing.
    Legally, the Supreme Court has made it clear that the 
Constitution allows the U.S. Senate to make its own rules. The 
Court has a long history of giving deference to Congress in 
determining its processes and procedures when it comes to 
issues surrounding voting. Based on our legal analysis, we 
expect remote proceedings to enjoy the same deference. I also 
believe that the Founders would be supportive of the 
legislative branch being heard during emergencies.
    We need to address the technical issues, of course, that 
surround remote proceedings. In my view, Senators should be 
required to authenticate their identity and verify their vote 
through an encrypted platform for remote voting. There are 
several off-the-shelf solutions for that that the Senate could 
use to create a secure and reliable voting platform. We have 
worked with a lot of outside experts, and we will hear about 
some of that today. We do not need to reinvent the wheel.
    I urge people to review this report, which I believe puts 
to rest many of the concerns I have heard raised about 
temporarily authorizing the Senate to proceed remotely in times 
of crisis. We very much look forward to hearing from our 
witnesses today about these issues.
    The Senate would not be the first legislative body to work 
remotely. Several States have decided to continue legislative 
business in the past month, including allowing members to vote 
remotely. Across the Atlantic, the European Union (EU) has 
implemented a remote voting system for its legislative body, 
while the Parliament of the United Kingdom (UK) is beginning to 
experiment with holding virtual proceedings.
    While a lot is uncertain about when life will return to 
normal, one thing should be clear: Congress should be able to 
continue to represent the American people--to do its job--even 
in times of crisis.
    I want to thank Senator Carper for working with me on this 
event today but also on this broader issue of remote governing. 
I appreciate him working so closely together in a bipartisan 
way to make sure that Congress can continue to operate and 
provide needed support for all Americans.
    With that, I turn to Senator Carper for his opening 
remarks.

             OPENING STATEMENT OF SENATOR CARPER\1\

    Senator Carper. Thanks, Mr. Chairman. I want to thank you 
for your leadership on this issue. This is an extremely 
important topic, as we know. I am pleased that we are able to 
have this discussion even as we continue to work together 
remotely.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Carper appears in the 
Appendix on page 37.
---------------------------------------------------------------------------
    I wanted to come on and say I am sitting here in my 
pajamas. Actually, I am not, but this is the first time I have 
put on a tie in quite a while, and it was hard to find in my 
closet, but I finally have. I am glad to be here with all of 
you.
    My service on this Committee, Mr. Chairman, started less 
than a year before the attacks on September 11, 2001, less than 
one year before those attacks. As our colleagues and many 
members of our staffs will recall, one of the planes hijacked 
that morning was likely headed for the U.S. Capitol. In the 
wake of that tragic day in our Nation's history, we started a 
conversation about issues like how to assemble Congress in a 
secure, remote location in the event that we could not meet in 
Washington, D.C. Mr. Chairman, I seem to recall discussion 
about the Greenbrier, like a special underground facility at 
the Greenbrier in West Virginia. There were also tough 
conversations about how to reconstitute Congress in the event 
of significant vacancies in the House and the Senate. It was a 
scary and challenging time.
    The new challenges that we face today as a result of 
Coronavirus disease (COVID-19) are no less scary and no less 
challenging.
    As COVID-19 deaths throughout our country continue to grow, 
it is essential that those of us serving in the Congress are 
able to respond quickly and effectively to the events of this 
day. Our top priority right now should be to do all we can to 
provide support to first responders, health professionals, 
businesses, and State and local governments, many of whom are 
stressed almost to the breaking point by the toll this virus 
has taken.
    With that thought in mind, I believe this is a good time to 
restart those sobering discussions from almost 20 years ago and 
begin to figure out how we can make sure this Congress and 
future Congresses are able to function during a major crisis 
that might make it difficult for us to assemble in Washington, 
D.C.
    Whenever I am confronted with a difficult policy decision 
like this one, I am reminded of three adages.
    The first one is: ``If it ain't broke, don't fix it.'' As 
we look at the rules governing emergency operations in the 
Senate, I have asked myself, ``Well, are they broken?'' I 
suppose one could point to the fact that we have been able--
with strong bipartisan support--to enact trillions of dollars 
in spending to fund badly needed programs in recent weeks and 
argue that things are working just fine. At the same time, 
though, much more needs to be done, and divisions are starting 
to show as we debate from afar and in the media about what to 
do next and when. It may be that unanimous consent (UC) is no 
longer an option; however, inaction is not an option either. If 
a remote voting system for the Senate allows us to move to the 
next stage in our response to COVID-19, we need to consider it.
    But as we consider some of the changes that have been 
proposed to the Senate recently, I am reminded of a second 
adage, and that is: ``Do no harm.'' We should not allow any 
remote voting system established to deal with the impact of 
COVID-19 to be abused to further unrelated, partisan goals. It 
would be truly unfortunate if a system we set up to allow us to 
deal with this virus were also used in the coming months, for 
example, to confirm controversial nominees.
    Potentially even worse than that, though, would be future 
Senate Majority Leaders using remote voting ever more 
frequently in future years to conduct routine Senate business 
so that members can remain in their home States rather than 
returning to Washington to do our Nation's business.
    Just about every significant legislative success that I 
have been a part of as a member of this body--and some of them 
with you, Mr. Chairman--has come out of personal relationships 
that I have been fortunate to develop with our colleagues 
during our time in Washington and through face-to-face 
discussions and negotiations in the Capitol and in our offices. 
Losing those relationships and the ability to work closely with 
our colleagues could well mean losing forever the Senate as we 
have known it in the past and likely accelerate all of the 
negativity and the partisanship that has made Congress so 
unpopular with voters in recent years.
    Let me close, Mr. Chairman, if I can, by acknowledging that 
there are more than a few tough questions that we will need to 
confront as we try to decide what course to follow with respect 
to this issue.
    Helping us on that journey is my third, and final, adage of 
the morning, and that is, ``Find out what works and do more of 
that.'' After all, our country is not alone in grappling with 
this global outbreak. We would be wise to look closely at how 
other countries and legislative bodies are dealing with these 
same issues, including a number of States that are taking bold 
steps, and see what lessons we can learn from their 
experiences.
    Thank you again, Mr. Chairman. Sorry for the technical 
difficulties. I think we have worked our way through them. I 
want to thank our staffs for all the work that they have put 
into getting us together to have this conversation.
    To our witnesses, let me welcome each of you. I think our 
witnesses are Martin Gold, Joshua Huder, and Lorelei Kelly. It 
sounds like a good Irish lass there. But we are happy to 
welcome all of you. We look forward to hearing from you and to 
a productive and timely conversation on a topic that needs to 
be addressed at this critical time in our Nation's history.
    Mr. Chairman, I think I might have seen at least one other 
Member of our Committee. I think it is Senator Mitt Romney who 
has joined us, and there may be some others. It is good to be 
with all of you. I look forward to being with you in person 
next week.
    Chairman Portman. Thank you, Senator Carper. I am looking 
forward to being back with you as well.
    I know that Senator Romney has joined us. Senator Romney, 
without giving you any notice, would you like to make any 
opening comments? We may have other colleagues who will join 
us. I think there were three or four others who were interested 
in joining us later. But, Senator Romney, anything for the good 
of the order before we get started?

              OPENING STATEMENT OF SENATOR ROMNEY

    Senator Romney. Mr. Chairman, thank you, and, Mr. Ranking 
Member, it is good to see you and to see Marty Gold on the line 
as well. I look forward to hearing from him and the other 
panelists. I think it is an important topic.
    Several weeks ago, almost 2 months ago, I raised with 
leadership the possibility that we might need to vote remotely, 
and it was suggested that that was an idea for another time, 
and I am glad this is that other time. I wish you the very best 
in the process. I clearly think that we have to have a 
provision of this nature in place, and for me the biggest issue 
is making sure that a true emergency was taking place as 
opposed to this becoming a political tool that could be used by 
perhaps a Majority or Minority Leader to accomplish something 
that the membership at large was not in favor of.
    We have seen the emergency designation used by the 
President in a way that some of us thought was excessive, and I 
think being able to define what is a true emergency and what 
would require remote voting would be something that we would 
need to pay attention to.
    With that, thank you for convening this hearing, and I look 
forward to hearing from the panelists.
    Chairman Portman. Senator Hawley has also joined us. 
Senator Hawley, are you able to join us? Can we see if we can 
hear your audio?
    Senator Hawley. How about this, Mr. Chairman? Can you hear 
me now?
    Chairman Portman. You sound great.

              OPENING STATEMENT OF SENATOR HAWLEY

    Senator Hawley. OK, great. Thank you. My video is not 
working, but I am able to see you and able to hear the audio, 
and I will just second your remarks, Mr. Chairman. Thank you 
for holding this timely hearing on this very timely subject. It 
is an unprecedented moment in our Nation's history, and I think 
we have to consider responsible, reasonable options to make 
sure that we can continue to do our work no matter what the 
physical circumstances are.
    Thank you for pursuing this hearing so we can explore these 
possibilities, and I look forward to hearing from the 
witnesses.
    Chairman Portman. Great. Thank you, Senator Hawley.
    I see that Senator Lankford has now joined us as well. 
Senator Lankford, do you have any opening comments? We are just 
getting started. We are about to go to the witnesses. I 
wondered if you had anything for us at the outset.
    Senator Lankford. Thank you. No. I am glad to be able to 
join you. I just look forward to the witnesses' testimony and 
giving me a chance to be able to listen in from there.
    Chairman Portman. Great. Thank you, Senator.
    I do not know if any other Senators are on. If you are, 
please speak up now.
    [No response.]
    OK. We will turn to our witnesses.
    The first witness has been referenced. Martin Gold is a 
partner at Capitol Counsel, LLC. In my view, he literally wrote 
the book that is considered the foremost authority on Senate 
rules and procedures. It is called ``Senate Practice and 
Procedure,'' and his expertise is renowned in terms of how the 
Senate can and should operate based on his extensive background 
in the Senate.
    We also are pleased to have with us Lorelei Kelly. Ms. 
Kelly is a Fellow at the Beeck Center for Social Impact and 
Innovation at Georgetown University. She leads their Resilient 
Democracy Coalition, which has been at the forefront of looking 
at ways data and technology can be used to modernize Congress. 
We thank you very much for joining us. I know you are out West. 
This is early for you. Thank you for finding a way to be with 
us.
    Finally, we have Joshua Huder with us. Joshua is a senior 
fellow at the Government Affairs Institute at Georgetown 
University. Dr. Huder holds a Ph.D. in political science and 
focuses his research and teaching on congressional procedure 
and politics. Having read his testimony, you will see he has a 
lot of interesting points to make dealing with some of the 
potential concerns that Senator Carper raised.
    I would ask you each to keep your opening statements to 5 
minutes. We will submit your full written testimony for the 
record, of course, and we will post it on the Subcommittee's 
website.
    Mr. Gold, we will start with you.
    Mr. Gold. Can you hear me, Mr. Chairman?
    Chairman Portman. I can hear you well.

 TESTIMONY OF MARTIN B. GOLD,\1\ PARTNER, CAPITOL COUNSEL, LLC

    Mr. Gold. Thank you very much. Mr. Chairman, good morning. 
Good morning, Senator Carper and other Members of the 
Subcommittee. Thank you for your invitation.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Gold appears in the Appendix on 
page 39.
---------------------------------------------------------------------------
    Senate leaders have worked thoughtfully to mitigate the 
impact of the coronavirus on the chamber. The question is: Is 
there more that the Senate can do to retain its deliberative 
character while protecting its membership and staff?
    Proposals, like yours, Mr. Chairman, have been made to use 
technology to augment or replace customary operations. Assuming 
that those ideas are technologically feasible, are they 
constitutional?
    The core issue arises from the mandate that a majority of 
each House constitutes a quorum to do business. Your remote 
voting resolution stipulates that participation by a majority 
of Senators in a virtual vote satisfies this requirement. I 
believe that is correct.
    While Congress' power of self-governance is not absolute, 
it is very ample. The Supreme Court addressed this point in 
United States v. Ballin, which was litigation involving an 1890 
House rule that altered how quorums were determined. Later in 
1890, Congress passed tariff legislation to increase tariffs on 
certain goods. Mr. Ballin was an importer, so he sued, 
contending that the 
legislation was infirm because a quorum of one House was not 
present--the House of Representatives. The case involved the 
juxtaposition of two constitutional provisions: the quorum 
requirement and the rulemaking power.
    Justice David Brewer in the Ballin Court explained that 
Congress may not govern itself in a way that violates 
constitutional restraints or fundamental rights but otherwise 
would write rules to suit its needs. It was up to the House to 
decide how to ascertain a quorum, said Brewer. He proclaimed 
judicial deference to the rulemaking authority, saying that 
within the limitations suggested, it was ``absolute and beyond 
the challenge of any other body or tribunal.'' So the Supreme 
Court upheld the statute.
    In the 2014 Noel Canning case, the Supreme Court 
unanimously invalidated three recess appointments made between 
pro forma sessions. Again, the issue was judicial deference. 
Citing Ballin, Justice Stephen Breyer wrote, ``The standard we 
apply today is consistent with the Constitution's broad 
delegation of authority to the Senate to determine how and when 
to conduct its business.''
    Please consider the purpose of the quorum requirement 
itself. The Framers looked at other options but settled on a 
majority, believing it fostered broad representative 
participation in Congress' work. As George Mason of Virginia 
said, ``In this extended country, embracing so great a 
diversity of interests, it would be dangerous to the distant 
parts to allow a small number of members of the two Houses to 
make laws.'' Remote voting and virtual proceedings fully serve 
the quorum objective.
    Would the courts invalidate legislation by applying a 
requirement for a physical meeting if Congress declares it is 
unsafe to convene one? As Justice Robert Jackson once observed, 
it is useful to temper ``doctrinaire logic with a little 
practical wisdom.'' Failure to do so, he said, could convert 
the Constitution into a ``suicide pact.''
    If the Senate authorizes virtual proceedings, it must 
either amend or override some existing Senate rules, specifying 
either that such proceedings satisfy the rules or that 
exception is made to them. The Senate must also consider 
precedents or orders that operate notwithstanding contradictory 
language in the rules so as to avoid an inadvertent impact on 
them.
    Mr. Chairman, the Senate could adopt a standing order that 
would temporarily override the rules without amending rules 
text. That is something you can do if you are worried about the 
implications of amending the text. That is exactly what the 
Senate did in 2013 with S. Res. 15, which was a standing order 
to reduce post-cloture time on certain nominations. That 
standing order expired at the end of the Congress.
    Virtual proceedings are not a substitute for normal Senate. 
The opportunity for Senators to interact with each other, with 
party leaders, and with staff is diminished if committees, the 
cloakrooms, and the floor do not function customarily. 
Moreover, Senators have the right to debate and the right to 
amend. Neither of those rights is vindicated by a process that 
allows for remote voting without virtual proceedings.
    It may be necessary to implement things in phases, like the 
British Parliament, in this case beginning with remote voting. 
However, as soon as possible, proceedings should replicate the 
Senate floor.
    Virtual operations are suboptimal, but even worse would be 
a Senate that needs unanimous consent to legislate while in pro 
forma sessions or one that must convene in hazardous conditions 
if there is an objection or a quorum call.
    Finally, some procedures explicitly refer to the need to 
prevail with 60 votes. In-person sessions with many absentees 
will have the distorting effect of making those thresholds 
crippling.
    I appreciate the opportunity to share these perspectives 
with you.
    Chairman Portman. I really appreciate your insights.
    Ms. Kelly, we will now turn to you for your opening 
statement.

   TESTIMONY OF LORELEI KELLY,\1\ DIRECTOR OF CONGRESSIONAL 
 MODERNIZATION, BEECK CENTER FOR SOCIAL IMPACT AND INNOVATION, 
                     GEORGETOWN UNIVERSITY

    Ms. Kelly. Senators, thank you for the opportunity to 
testify. My name is Lorelei Kelly, and I work on congressional 
modernization at the Beeck Center for Social Impact and 
Innovation at Georgetown.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Kelly appears in the Appendix on 
page 50.
---------------------------------------------------------------------------
    We are at a pivotal moment in our democracy. The urgency to 
restore a functional legislature increases with every moment. 
Will Congress join the rest of society, not to mention several 
other legislatures here in the United States and around the 
world, and let the technology enable us to carry on with the 
vital operations of the first branch? Will we maintain the 
promise set forth in Article I of our Constitution? Or will we 
let more and more time slip away as unprecedented taxpayer 
dollars are spent, as checks and balances go awry, and as 
Americans far and wide look to congressional leaders to inform 
us, unify us, and to help push through this crisis? Let us 
choose the first option. If you remember anything from this 
testimony about continuity of the Senate and remote 
participation, let it be that we can do this. Indeed, we are 
doing it right now here today. It is hard, but we are watching 
it happen. The more apt question for you is: How do you want to 
operate existing technology?
    Like this video conference roundtable today, millions of 
Americans are moving their work and their relationships to 
online video platforms. You can be sure that this workspace 
will be different than what you are used to in the Senate 
chamber. You can still get a lot done, and we know some things 
already.
    For example, glitches are inevitable. Lagging will happen. 
We need to figure out how to multitask. How do you signal or 
raise your hand? How are you supposed to communicate in 
confidence with your staff? Figuring out how to answer these 
questions is now our challenge. Some of them, like 
authentication, methods for remote voting, and encryption, are 
already in practice in other countries. We can do this, even 
while we are dispersed across the country. I am talking with 
you today from the cab of a pick-up truck with a hot spot on a 
farm in San Juan County, New Mexico. Your excellent staff 
helped me make this work. They can help the entire Senate.
    It is also important to remember that the Senate has 
adapted in a crisis before. To be sure, today's challenge is 
not a technical one. It is an emotional and intellectual one. 
We require a change of heart, and change is hard. But the good 
news is that there is a lot of heart to share. So many people 
love and admire this institution. We all want it to be better 
than ever on the other side of this pandemic, and we all stand 
ready to help.
    Most of us in this roundtable probably remember Senate Life 
Before BlackBerry (LBB). This was when a staffer could lose a 
Senator on a site visit. That does not happen anymore because 
mobile connectivity in most of the work flow is a norm.
    I was a congressional fellow in 2001, and I was working on 
the Hill through September 11th and the anthrax attacks. I will 
never forget the experience of my friend on Senator Domenici's 
staff. Her Hart Building desk was sprayed with foam in an 
attempt to neutralize any possible contamination. The offices 
were evacuated in mid-October. They had no access to important 
documents, to each other, to files, or to their workplace. Then 
they could not return until January of the next year. Four 
months went by while they worked in makeshift spaces, near 
Union Station or in hideaways in the Capitol. Senate staff was 
strewn everywhere, and at that time connectivity was maybe 10 
percent of what it is today.
    This experience accelerated mobile adaptation. I am not 
excusing the lack of a continuity plan at that time. We needed 
one then, and we need one now. But this time around we are so 
much more capable. If I could flip a Senate master switch 
tonight, I am sure that this chamber would race up the learning 
curve. If you give them permission, your colleagues and staff 
will rise to this occasion. This chamber has nearly 4,000 
employees. Many of them are young and accustomed to technology 
integrated throughout their lives. Remote voting in an 
emergency is vital. But so is the deliberative process. Let us 
use this time to reimagine how committees operate. Start with 
field hearings. Their rules are not bound by geography in the 
first place.
    Before we catch our breath, we will have built the 
foundations of a 21st century institution. Just think of how 
better informed we could be with remote technology capacity in 
the Senate. Imagine the realtime situational awareness we could 
have if local first responders, medical professionals, 
cashiers, teachers, health care workers could fill your 
Committee panels during this pandemic. With this roundtable 
today, we are on the right track.
    Finally, although temporary remote voting and online 
deliberations are now imperative, know that they will never 
take the place of in-person convening. Like all of our most 
important life experiences, relationships leverage technology, 
not the other way around. More than anything else, the Senate 
is about human relationships, and those ties will remain top 
priority. They will remain paramount.
    I have confidence in this abiding truth and in your 
leadership on this, and I stand ready to help. Thank you for 
having me here today.
    Chairman Portman. Thank you, Ms. Kelly. Very well done. I 
like your studio, the cab of a pick-up truck. Perfect.
    Dr. Huder, we will now hear from you.

    TESTIMONY OF JOSHUA C. HUDER, PH.D.,\1\ SENIOR FELLOW, 
      GOVERNMENT AFFAIRS INSTITUTE, GEORGETOWN UNIVERSITY

    Mr. Huder. Chairman Portman, Ranking Member Carper, and 
Members of the Subcommittee, thank you for the opportunity to 
testify before you today. My name is Joshua Huder. I am a 
senior fellow at the Government Affairs Institute at Georgetown 
University, where I teach and research congressional operation. 
We gather today in a virtual forum at an unprecedented moment 
in American history.
---------------------------------------------------------------------------
    \1\ The prepared statement of Dr. Huder appears in the Appendix on 
page 55.
---------------------------------------------------------------------------
    Now, more than at possibly any other time, the American 
people are relying on Congress to guide us through this 
pandemic. Rising to that challenge will require Congress to 
adopt some new and creative processes to continue its 
operation.
    I want to make three points about remote voting as a 
possible alternative.
    First, it is imperative Congress adopt methods for absent 
members to participate in drafting, debating, and passing 
legislation to address the COVID-19 pandemic, as well as 
processes to formally and publicly oversee their implementation 
and execution.
    Second, remote voting may be necessary, but it also poses 
serious institutional consequences. It should, therefore, 
remain strictly and narrowly limited to emergency situations 
only and not adopted as part of the regular proceedings.
    Finally, I will highlight what I view as some of the best 
alternatives to address the current situation.
    The COVID-19 pandemic has disrupted, and will continue to 
disrupt, normal congressional operation, and it is critical 
that Congress creates committee and floor processes to fulfill 
its constitutional role and responsibilities. If Congress does 
not, it risks abdicating that authority. It would delay 
congressional responses to the pandemic, omit important sources 
of information from the policymaking process, and limit 
oversight.
    As trillions of dollars are doled out at record pace, 
Members of Congress are, in many ways, the best situated to 
understand the response's successes, failures, and needs. 
Convening to debate and oversee these programs is critical to 
ensure the programs Congress creates are executed as the 
Congress intends. Congress' role in our political system cannot 
be substituted or replicated in this way. 
Effectively addressing this crisis will require the input of 
every Representative and Senator, and that means ensuring the 
representational link between constituents and government is 
not disrupted.
    However, Congress should also be wary of the potential 
damage remote legislating could inflict. This roundtable's 
primary focus is remote voting, but functionally it is a 
discussion of remote legislating, and legislating incorporates 
a much broader set of activities than a simple vote. It 
involves deliberating in committee rooms, members' offices, 
hallways, and the chamber floors. It involves coordinating 
action, building relationships, and forming alliances. Congress 
is not merely an institution of disconnected representatives 
voting independently on separate matters. It involves much more 
than just voting. Remote legislating distances members from 
this process, and physical distance also entails informational 
distance.
    In this sense, remote legislating creates several problems. 
The gulf between rank-and-file members and the substance of 
legislating would only get larger. Today members are blocked 
from offering amendments; giant omnibus packages reduce 
individual influence and scrutiny; and less room exists for 
Senators and Representatives to craft and negotiate major 
deals. Remote legislating would only worsen this problem, 
enabling chamber leaders to negotiate in secret and keep rank-
and-file in the dark.
    Also, it could possibly worsen polarization by reducing 
member interaction. Even in one of the most polarized periods 
in American politics, members from radically divergent 
ideological backgrounds foster fruitful political relationships 
through personal interaction. This highlights the importance 
and value of the Capitol. Seemingly trivial personal 
connections can and have influenced the entire chamber. 
Congress has always been substantially shaped by the 
interaction of its members, and convening online reduces 
opportunities for members to form those important 
relationships. Physical barriers between members only increase 
reliance on party leaders to facilitate lawmaking, which limits 
the political and policy possibilities and increases the divide 
between the parties. Limiting these procedures to emergency 
situations would protect members from individual influence.
    As alternatives to regular proceedings, I believe some of 
the best approaches in State legislatures and elsewhere blends 
an in-person participation component with streamed proceedings 
and proxy voting. This offers two advantages. The first is that 
it is quick. It can be implemented through chamber rules and 
simple changes to existing procedures. Second, it safeguards 
against permanent remote voting, which I see as a danger. 
Institutional consequences should remain limited to emergencies 
only, and proxy voting offers the best alternative to safeguard 
its limited use.
    Thank you for the opportunity to testify before you today. 
I look forward to your questions.
    Chairman Portman. Dr. Huder, thank you very much.
    We will now go to Members' questions, and each Member will 
have 7 minutes to ask questions. We will have a second round or 
even a third round if there is interest. Again, I want to thank 
all three witnesses for their testimony. Your expertise is 
really helpful right now as we look at this.
    I would like to make one general observation and then ask a 
couple of questions. Marty, you said it is not a good thing 
that Congress cannot convene, but it is even worse if the 
Senate cannot operate during emergencies--in other words, if 
the legislative branch's voice is not heard. That is kind of 
how I come at this. I have been promoting this for over 25 
years now going back to House legislation when I was in the 
House of Representatives. For me, this is not about this 
pandemic. This is a broader question.
    Ms. Kelly, you mentioned this. This is also about the 
possibility of a terrorist attack or other reasons that 
Congress would not be able to meet.
    This is something that I think should be looked at strictly 
in terms of the pandemic but the general concern that there are 
times when Congress either cannot physically or should not be 
gathering.
    To the point about relationships, interactions, and the 
preference of being in-person, again, I do not disagree with 
that. I think it is good for in-person. I do think it is kind 
of interesting to hear some people say that Congress has all 
these personal relationships, and that helps. As they would 
say, it provides the ability to get more done in a bipartisan 
way. We have lost a lot of that in Congress, and I can say that 
as someone who was in the House for 12 years and now has been 
in the Senate for over 10 years. This is unfortunately a place 
where bipartisanship is more difficult, not easier; Senator 
Carper's relationship that he talked about earlier with me and 
mine with him I think have been helpful to us working together. 
We do a lot of bipartisan work together, as I do with other 
members. But it is possible that actually remote interaction on 
a more normal basis could help that as well.
    To give you an example, we are typically off about one-
third of the year. One-third of the year Congress is not in 
session, even under normal circumstances. I would ask my 
colleagues, do you ever interact with your colleagues on your 
side of the aisle much less colleagues on the other side of the 
aisle during that period? The answer is probably never or 
rarely. We really do not get together. We are also only usually 
in session Monday afternoon until Thursday afternoon, and so 
the rest of the week we have very little interaction with our 
colleagues.
    Some of us take great pride in our ability to get things 
done on a bipartisan basis and believe that is the most 
important part of the job to achieve things for the people we 
represent, which, by definition, have to be bipartisan to get 
through. But I do not think that remote interaction, whether it 
is the process of legislating or even the interactions you have 
in a remote roundtable such as this, necessarily take away from 
that. In fact, Ms. Kelly, you kind of spoke about this--that 
there is an opportunity here actually to increase interaction 
with members, particularly during those times when we are not 
in session, which, when you add it all up, is really the 
majority of the days of the year we are not in session. I would 
just put that out there as my general observation.
    On questions, I think, Marty, you did a good job talking 
about the constitutional issues, and I appreciate that. I think 
you are correct. I do believe that great deference is given to 
the Senate to come up with its own rules, as it should be.
    The one you did not mention, I do not think, at least 
extensively, was this issue about the enrolled bill rule and 
how that would affect the Supreme Court's review of laws passed 
through remote voting. This enrolled bill rule is a Supreme 
Court doctrine that says the courts should not look past the 
enrollment bill once the congressional leadership has signed 
off to determine whether Congress passed a law according to 
proper procedure. Once it is enrolled, that becomes the 
legislative branch's legislation it sends to the President.
    Could you speak to that for a moment?
    Mr. Gold. There are several doctrines that the Supreme 
Court has observed in one form or another to speak to the 
question of judicial deference to Congress. For example, the 
Ballin case did not rely on the enrolled bill doctrine. 
Nevertheless, the enrolled bill doctrine that you have just 
properly depicted, Senator, that says that if you have the 
leaders of the House and the Senate who are authorized to sign 
the bill affixing signatures to the bill, then the Supreme 
Court or the courts generally will not look behind that to 
determine what kind of procedures were used or whether they 
were properly formatted and so forth in order to get you to the 
end result.
    It very much, by the way, is the same thing that is the 
case in Senate rules. Senate Rule XXVI says that if you have a 
quorum of a committee that has reported a piece of legislation, 
then the Parliamentarian and the Chair will not look behind 
that and determine whether committee procedures were properly 
followed. It is a sense that you should defer to the final 
action of the committee or in this case the final action of the 
chamber without going behind it to try to pick apart what might 
have been done getting to the end.
    The enrolled bill doctrine is certainly one of the reasons 
for deference. Political question doctrine is another major 
reason for deference. The equitable discretion, the idea that 
courts should not go in and rewrite congressional rules, is a 
further reason for deference.
    There are a number of different doctrines on which a court 
could rest in terms of deciding whether or not the rulemaking 
power should be invaded, and my sense of it is that if Congress 
says, A, it is unsafe to meet; B, they have adopted a rule to 
operate in lieu of the actual physical meeting; and, C, that 
they declare in the rule that the participation by a majority 
of members, for example, in a remote vote represents a quorum, 
and so forth, I believe that all of those doctrines in one form 
or another would be sufficient to create the deference you 
want.
    Chairman Portman. Therefore, the constitutionality of 
remote proceedings and remote voting. Thank you very much.
    I want to turn to my colleagues in a second here, but, Ms. 
Kelly, one issue that I think is interesting to put on the 
table. For this roundtable, we did not come up with a new 
system from scratch. This is off-the-shelf technology that is 
available in the Senate today, so for those who raised the 
technological concerns, just to make it clear that we are 
proceeding today with technology that is readily available and 
could be improved further, as we saw earlier. But any comments 
on that quickly?
    Ms. Kelly. I think that there are any number of platforms 
that are off the shelf and could be configured or formatted 
specifically for the procedures of the House and the Senate. I 
think that the tech industry would be glad to help work with us 
on the legislative status steps and look at what is needed 
where and how to do it. This is a really hard problem, but it 
is not an impossible one. I think it would be a great endeavor 
to work together with the tech industry to bring D.C. and 
California at long last together in a common goal. Yes, I agree 
with you.
    Chairman Portman. Great. Thanks, Ms. Kelly.
    I now turn to Senator Carper.
    Senator Carper. Ms. Kelly, let me ask you a question. The 
pick-up truck that you are sitting in, is that your truck?
    Ms. Kelly. This is a 1998 Dodge truck that is used for 
hauling out here on this farm. It is my sister's truck.
    Senator Carper. No kidding? I am at my home in Delaware, 
and in the garage of our house is a 2001 Chrysler Town & 
Country minivan. The next time I do one of these, I am going to 
do it from there.
    Ms. Kelly. It is very cozy, and I have a hot spot here. I 
am having the full rural broadband experience out here on the 
farm. [Laughter.]
    That is another conversation, but it is a thing.
    Senator Carper. I thank each of you for your testimony. 
When you gave your testimony, were you giving it 
extemporaneously? Were you reading? How were you doing that?
    Ms. Kelly. This is something I will be happy to share. I 
found a teleprompter that is a sort of open source and 
available online. I will send it. It is called 
``CuePrompter.com,'' and I cut-and-pasted into the box, and it 
turns it into this beautiful scroll, and you can control the 
speed. Then you can start and stop it. I am glad that it looked 
like I knew what I was doing. [Laughter.]
    I tried a couple of times, and I guess it worked, so thank 
you.
    Senator Carper. Mr. Chairman and colleagues, I want to say 
if we get nothing else out of this, I think we have just gotten 
a mother lode right here. Thank you.
    I am reminded of something, as I approached this hearing, 
that Joe Biden, who was elected seven times to the U.S. Senate 
before becoming Vice President, I am reminded of something that 
he used to say, and he still says. He says, ``All politics is 
personal.'' He adds to that a P.S.: ``All diplomacy is 
personal.'' I would be inclined to agree with both of those 
observations.
    Let me ask, if I could, for each of you, one or two points 
where you think you agree with the other panelists. Do you want 
to go first, Ms. Kelly?
    Ms. Kelly. I think that the most important--and I am not a 
constitutional lawyer. I did work on the Hill. But I think that 
what I heard both my fellow panelists say is that the sort of 
legacy of the past and the rules and the quorum and the 200-
some-year-old traditions are not hard and fast obstacles in the 
place of moving forward and adapting. We have needed to do this 
for some time, and now we just need to do it more urgently than 
ever before. But this has always been possible, and now it is 
mandatory.
    Senator Carper. Let me ask you, Dr. Huder, what do you 
think, a point or two where the three of you agree?
    Mr. Huder. I think clearly we all agree that some process 
needs to be created. We need some way for the Senate to 
convene. This is a great example of the possibilities that are 
out there for Congress to maintain its constitutional role and 
function within the legislative process, but also in overseeing 
responses to this.
    Second, I think that we all agree that there is little 
substitute for the in-person nature and the personal 
relationships that make the Senate what the Senate is. More 
than any other legislative body in the world, the Senate is 
very much driven by its personal relationships and its social 
interaction. I think that removing that or severely limiting it 
would be something that we would all lament.
    Senator Carper. All right. Thank you.
    Marty Gold.
    Mr. Gold. Thank you, Senator. I absolutely agree with Dr. 
Huder's statement about the importance of personal interaction 
in the Senate. Not only what he said in his oral statement but 
in his written submission as well, he made a very strong point 
about that. I do not think there is anybody who really thinks 
that remote participation is a substitute for the actual 
Senate. Senator Portman made a comment in his opening remarks, 
and it is really embraced in the resolution that he offered 
with Senator Durbin, about limiting circumstances so that you 
do not resort to this on a basis other than in emergency 
conditions.
    If you begin from the premise that there is no substitute 
for the actual Senate and that the best thing you are doing is 
working in a suboptimal circumstance to do the best you can in 
circumstances where it is physically dangerous to convene, then 
you build guardrails around what you do so that you do not use 
this on too casual a basis. The proposal that Senator Portman 
and Senator Durbin have introduced, also one, for example, that 
Senator Paul introduced, has that characteristic or those 
characteristics. On what basis do you initiate it? On what 
basis do you continue it? On what basis do you sunset it? On 
what basis do you renew it?
    In other words, the point is if this were a substitute for 
the actual Senate--which Dr. Huder has made a very clear point 
that it is not, and I agree--you would not worry about those 
things so much. If it is not a substitute for the actual 
Senate, then you have to build in the protections and the 
guardrails, which these resolutions that I have seen so far 
absolutely do.
    Senator Carper. All right. Thanks.
    Let me turn back to Dr. Huder again for a moment. Dr. 
Huder, you have noted that remote participation could further 
concentrate power in the hands of congressional leadership. You 
have also argued that if members want to hold leadership 
accountable, to quote you, I think you said, they ``need to at 
a minimum be physically present.''
    Two questions. One, can you expand on the ways in which 
remote voting and participation could empower leadership at the 
expense of other members?
    Mr. Huder. Yes. One of the ways that remote voting empowers 
leaders is that they will be the ones who are in the Capitol 
itself. Even with any remote voting process, there are going to 
be people that are going to have to be in the chambers to make 
the rules, motions, and procedures that are going to be 
necessary to pass law. If lawmakers are not there, then they 
are significantly removed from the information process of 
lawmaking. That creates a situation where, if they are not 
there to learn the information through first or secondhand 
experience, it is going to be much harder for them to get 
involved in the lawmaking process, to understand what is going 
to happen, what negotiations are going on, and what policy 
provisions are in play. If they are not there, there is a 
transfer of power that leaders have more leeway to move.
    Senator Carper. Thank you.
    A related question, Dr. Huder, if I could. In your view, 
would remote participation allow for regular members to make 
contributions to the substance of legislation? Or would they 
likely be limited on a practical level, simply voting yes or 
no?
    Mr. Huder. They are absolutely limited. They would not be 
present, and it is unclear--maybe there is a process or a 
technology that could make them a little more remotely enabled, 
if you will, to make a motion or a point of order or offer an 
amendment or whatever it may be. But it is going to be very 
difficult for them to participate as they would if they were in 
the chamber. Legislating is a lot more than simply voting yes 
or no. In order to stop a bad idea, you have to prevent it from 
getting to the vote. That is just one example of many where 
being in person really is not a substitute for voting remotely.
    Senator Carper. All right. Thank you. Thank you all very 
much.
    Chairman Portman. Thank you, Senator Carper.
    I believe Senator Romney is up next. Senator Romney, are 
you on?
    [No response.]
    Chairman Portman. All right. Let us turn to Senator 
Lankford. Are you on? I know you had another call.
    [No response.]
    Senator Hawley, are you available?
    Senator Hawley. Yes, I am, Mr. Chairman. Thank you very 
much.
    Chairman Portman. Great.
    Senator Hawley. Thank you again for doing this. Thanks to 
all the witnesses for being here.
    Mr. Gold, could I just start with you, and could we go back 
for a moment to the British Parliament? We know that the 
British Parliament is moving toward a virtual parliament, and I 
wonder, what are some lessons do you think that the U.S. 
Congress could learn from the British experience thus far?
    Mr. Gold. The British experience thus far has involved the 
use of remote proceedings on something that was quite suited to 
those remote proceedings, and that was Prime Ministers' 
questions. Now, they did a hybrid proceeding in the House of 
Commons, so they had some members there, although a significant 
majority of the members were not present. But, nevertheless, 
Prime Ministers' questions was the kind of thing that was not 
unduly complex to do by a remote proceeding mechanism. So that 
is what they did. The idea was that they would begin with that 
and phase in other aspects of the legislative procedures of the 
House of Commons as it became apparent that those things were 
technologically feasible and could be managed.
    That was actually the point I wanted to make in the 
statement that I made, which is that it is not necessarily 
necessary for Congress to do everything it ought to do all at 
the same time, because there may be proceedings that can be 
attuned to a remote voting or remote participation process more 
easily than other proceedings. The fact that you cannot do 
everything at once does not mean that you should not start 
someplace and then proceed on from there. It is also the reason 
that I said that maybe we should take some care in terms of 
amending Senate rules which have a more permanent character and 
look to the possibility of perhaps a standing order that allows 
things to be done on a more experimental basis with a sunset 
clause in that standing order so that if things are not 
properly accomplished, then the rules do not have to be amended 
again in order to take care of something.
    This is obviously an experiment like the British Parliament 
is an experiment. I would caution not to go too deeply into the 
experiment all at once. Do it in the phases that can be 
managed, like the parliament has done, and to consider doing it 
on a temporary basis until one has a clearer picture of what 
ought to be done on a more permanent basis.
    Senator Hawley. I am intrigued by your point just now that 
the British Parliament's experience with Prime Ministers' 
questions in adopting virtual proceedings for some of its work, 
not necessarily all of its work, it raises the possibility in 
my mind, which is what I think you are suggesting, that one way 
for the U.S. Congress to proceed is to stagger our workload, as 
it were. We do not have to go virtual for everything. Of 
course, we do not have to do everything all at once.
    I wonder if you could just say a little bit more about what 
sort of congressional proceedings you think are particularly 
good places to start in terms of working virtually, 
implementing these virtual technologies. If we were to stagger 
our workload in the face of an extended emergency like this 
pandemic, what might that look like? Where would you counsel us 
to begin?
    Mr. Gold. The Portman and Durbin resolution begins with 
voting, and so the premise is that members have been informed 
about the content of legislation, but they want to have an 
ability to express themselves on the record as to their 
position on that legislation as opposed to saying something can 
only pass by unanimous consent or a voice vote or their 
individual opinions are not expressed. It seems to me that if 
you could find the kind of secure platforms that Senator 
Portman was talking about in his opening Statement, that might 
be a place to begin.
    Now, Dr. Huder has talked about the difficulty of the give-
and-take on the floor: somebody wants to offer an amendment, 
somebody wants to make a point of order, somebody wants to put 
a quorum call in--all of those things that we are accustomed to 
in the normal operation of the Senate.
    I made the statement that ultimately I thought that the 
Senate should embrace as much of that as possible because the 
legislative process is more than voting. If you begin with 
remote voting and say, well, at least in that sense members 
have had the opportunity to express themselves in a meaningful 
way on the passage or defeat of a proposal, whether it is the 
final passage of the legislation or an amendment to the 
legislation, whatever the vote may be, if you begin there, I do 
think that is a place to start; and I think that that is 
attuned to technology. If you can establish that the technology 
is available to begin to mimic as closely as you can floor 
proceedings, then the greater degree that you can expand this 
to look like the normal Senate, the better, understanding 
probably that at no point will it actually look like the normal 
Senate.
    Senator Hawley. Dr. Huder, let me just turn to you, if I 
could. On the point on voting, could you just give us a word 
about any security concerns with setting up a remote voting 
system that you are aware of that you might have? Talk us 
through that.
    Mr. Huder. Senator Hawley, I am not a technology expert, 
and I also do not know the platforms that are out there, so 
this is really not my forte to discuss the security issues. My 
understanding is that in many of the State legislatures they 
are doing this through other forms of technology, either 
through some face-to-face communication with a proxy that is in 
the chamber or taking a picture of a vote or a paper vote and 
sending it to a proxy in the chamber. But in terms of actually 
voting through technology, I would not be the person. I believe 
Ms. Kelly would probably have a better answer.
    Senator Hawley. Can I just ask you, on the State 
legislatures, Dr. Huder, do you have any assessment yet of the 
different approaches that the State legislatures who are 
experimenting with remote proceedings, how those are going, or 
any assessment of their various approaches and what you think 
of them, what you think is promising, what you think is not so 
promising?
    Mr. Huder. Yes, I think that there are several State 
legislatures that everybody is in this in the very beginning; 
we are all kind of experimenting with it, and places like 
Pennsylvania and Oklahoma were a couple instances that I 
highlighted because I thought it brought an interesting and 
novel approach to a very difficult problem given this pandemic. 
They are doing a sort of proxy and remote participation 
component where members can participate or at least watch a 
live stream while voting when necessary.
    I think the concern comes when you start to bring in more 
controversial measures and there is disagreement within the 
ranks. I think that many State legislators were expressing some 
concerns that as the process becomes more unwieldy and more 
controversy arises, that it may become more difficult to enact 
or execute the processes that they have been using.
    Senator Hawley. Very good. Thank you very much. Thanks to 
all the witnesses, and thank you, Mr. Chairman.
    Chairman Portman. Thank you, Senator Hawley.
    Senator Lankford, when you are available--I know you are on 
another call--just chime in. We would love to hear from you.
    Let me, if I could, back up a little bit to the general 
premise here that we believe that the legislative branch ought 
to be able to express itself at all times, including times of 
emergencies when we cannot gather or should not gather. Again, 
this does not relate just to the pandemic, but for me I think 
about this in terms of, as was noted earlier, during the Cold 
War we had a bunker set up on a mountaintop in West Virginia 
somewhere for fear we could not gather. Certainly during 9/11 
we saw this happen where it was viewed to be unsafe to be in 
the Capitol immediately after the attacks of 9/11.
    We have had a concern in our country for some time about 
bioterrorism, and bioterrorism is not a natural virus, but it 
has some similar aspects to it and the inability potentially 
for us to gather. But to me this is about continuity. As I said 
earlier, it is also about the fact that in the Constitution and 
among our Founders there was a sense that we are the people's 
voice. We are the ones representing our individual constituents 
in our districts and our States and that we should be heard, 
particularly during times of national emergencies or, as is the 
case now, at a time when we are making huge decisions on behalf 
of our country, at a time when our economy is in free fall and 
we have a serious health crisis that is affecting so many 
Americans, having already resulted in so many fatalities, as 
many as we had in the entire Vietnam War, just in the last 3 
months. This is a time when we should be heard, and so that is 
my premise to this.
    I had a question for you, Dr. Huder. I agree that when we 
can meet, we should meet, and I think many of your observations 
are in theory maybe more applicable than they are in practice 
in terms of how Congress operates. I wish there was more 
personal interaction, and I certainly try to practice that, but 
that can be done remotely as well, particularly, as I said 
earlier, most of the year, most days of the year we are 
actually not in session. But to say that there would be a 
concentration of power and leadership in relation to remote 
voting I think belies the reality of what we have seen in the 
last couple of weeks. Congress passed legislation last week 
that provided over half a trillion dollars of your tax dollars 
and all of our constituents' tax dollars to address this 
pandemic. Think about that, over half a trillion dollars. As 
you know, normally we have significant heartburn and debate 
over $100 million here, $100 million there. We are talking 
about hundreds of billions with a ``B.'' As someone once said, 
a million here, a million there, it begins to add up. Now it is 
a billion here, a billion there, it begins to add up, or even a 
trillion here, a trillion there. Yet because of, I think, the 
necessity for us to act and the inability for us to gather, 
there was significant concentration of power in those who were 
working on this in Washington, and this was the Republican 
leadership and the Democrat leadership. But there was no input 
from members. There was no debate. There were no amendments. 
There was no vote.
    I think the notion that somehow remote voting leads to more 
concentration, I think at least in the experience that I have 
had in this particular pandemic and my sense as to how this 
could work in the future should, God forbid, there be an attack 
on our country as there was on 9/11 or some other way that we 
were not able to gather, my concern is that people would not 
have their representatives being heard.
    So whether it is voting, which is the ultimate sacred 
responsibility, or whether it is all of the processes that lead 
up to that, including hearings like this one, including the 
opportunity to have debate, offer amendments, to be heard, it 
seems to me that that would help to ensure that democracy, 
small ``D,'' is exercised.
    What am I missing? What are your thoughts on that?
    Mr. Huder. Mr. Chairman, I think you are exactly right that 
Congress needs to be voting at this moment and they need to be 
signing on the record or disagreeing on the record with the 
decisions that are being made and the types of policies that 
are being passed. I think that is critical.
    I think it also highlights the importance and concerns with 
remote voting. When we are discussing massive trillion-dollar 
or half-trillion-dollar response packages, the type of speed 
necessary to pass these packages in a timely manner is going to 
necessitate circumventing normal legislative procedures where 
you have committee hearings vetting the proposals and the 
policies, you have oversight hearings. The necessity of getting 
something out quickly means that you are going to have to 
obscure some of the deliberative processes that are normal to 
the legislative process.
    The concern comes when you start to turn to more routine 
legislation that Congress will need to be adopting later on 
this year. For example, the National Defense Authorization Act 
will be something that Congress may need to pass as this 
pandemic continues, or appropriations bills or a continuing 
resolution of some sort, and it may need to be addressed while 
the pandemic still rages on.
    My concern is that remote voting comes to limit the 
deliberation that you would see on some of the very important 
matters that Congress will have to adopt that are not emergency 
response packages. This is why I believe that your resolution 
and many of the other things that would enable remote voting 
and remote participation are absolutely critical at this 
moment. There are also some long-term concerns that may limit 
the deliberation that would otherwise exist on very important 
legislation.
    Chairman Portman. Getting back to what Mr. Gold said 
earlier on, which is that the best would be if we could be 
together--and I could not agree with that more--but our worst 
is that we have a situation where we cannot gather and our 
voices are not heard. As a practical matter, as a professor who 
studies political science and particularly the U.S. Congress 
and our processes and procedures, a lot of this has to do with 
balance of power. The Constitution was set up to ensure that 
the legislative branch, the executive branch, and the judicial 
branch had this delicate balance and that there was deference 
where appropriate but not overreach. Without the legislative 
branch being able to convene and to be able to speak, obviously 
power then shifts to the other branches, particularly to the 
executive branch, which I think is counter to what the Founders 
intended, and goes back to this notion that we are asked to 
represent our States, our districts. I thank you for that.
    My time has expired. We will turn to Senator Carper. I do 
have some questions on the technical aspects on this that I 
will come back to, Ms. Kelly. Senator Carper.
    Senator Carper. Thanks, Mr. Chairman.
    One of the most valuable expenditures of my own time in the 
Senate has been actually not necessarily the time we have spent 
in a committee hearing or on the Senate floor voting, although 
those can be very helpful. Some of the most valuable time I 
have had in terms of building relationships is when we have 
traveled together on the congressional delegation trips. I know 
Senator Portman has been on any number of those. I have had the 
pleasure of being on some of them, too, as has he.
    I am going to think out loud here for a minute, which is a 
scary proposition, but the idea of--as I said earlier, let us 
find out what works, do more of that; find out what does not 
work, do less of that. There are other countries, other States 
around the United States who have been experimenting in this 
arena for a while. Just like the way that States are taking a 
different approach to opening up, coming back to normal, we are 
going to find out from the States what worked and what does not 
work.
    I wonder how we would go about finding out around this 
country, and around the world what works and what does not 
work. It would be interesting, I think, for us to hear from 
parts of the world as well and maybe to hear from some of the 
places, whether it is States or another country, where they 
have tried this and failed miserably, and we will see what we 
can learn from both of them. This might be a stretch, but the 
idea of where we could put on an airplane folks from the Senate 
who would have some expertise in this area, maybe let them go 
visit a couple of countries together, and they will learn 
something from those countries, but also have a chance to get 
to know each other better and to build some of the bonds that I 
think are helpful to getting things done.
    I just want to lay that out there off the top of my head. 
It may be a good idea, it may not be. But it might work on a 
couple different levels. Much of my success, what success I 
have enjoyed in the last almost 20 years, but much of it has 
been the result of forging relationships with people on the 
other side of the aisle and building trust through 
interpersonal interaction. James Lankford is on this call, and 
he is going to be joining us again shortly. One of those 
examples for me was Tom Coburn, a Republican from Oklahoma, a 
successful businessperson, a doctor, obstetrician, a House 
Member, and a Senator. We built over the years a close bond 
which made the rest of the Committee on Homeland Security and 
Governmental Affairs, I think to look back, and he passed away 
a month or so ago, but it was the interpersonal interactions 
that we had that enabled us to develop a trust to lead. Efforts 
like that to overcome partisan divides I think are more 
important now than ever.
    A question of Ms. Kelly, if I could, and then a question of 
Dr. Huder, if I could. Ms. Kelly, do you have any 
recommendation based on your work for sustaining personal 
relationships between legislators, even in a remote setting?
    Ms. Kelly. Yes, thank you for that question. Actually, I 
have been involved with a couple of what we called ``mock 
hearings,'' and we used Zoom to mimic some of the basic 
functions of a hearing. We in the second one had a member of 
the U.K. Parliament present. She was so generous, so happy to 
help, and so interested in what was going on in the United 
States as well.
    The good news is that there are two websites that have a 
continually updated scroll of what is going on in State 
legislatures in the United States. The National Conference of 
State Legislatures has a whole COVID-19 banner, and continuity 
of government is one of the boxes they have checked. You can go 
there and see continually what States are doing. Just from your 
membership on your Committee--California, Kentucky, Oklahoma, 
Utah--they have all taken steps, or they are all doing 
something, and they have done it differently. It is really 
interesting to go through, and they are linked right to the 
legislative language.
    In terms of international progress forward on this, the 
International Parliamentary Union (IPU), which has an entire 
section that looks at information technology (IT) in 
legislatures, and it has for many years, has a legislative data 
and transparency conference in the U.S. Capitol every year that 
all the Congress nerds go to, those people who keep things 
running behind the scenes. I think we can take real confidence 
knowing that the institution of Congress has made great strides 
in the last 10 years. Congress is a mostly machine-readable 
organization now. There are treasure troves of data that are 
structured and made available online now. A lot of what we are 
talking about here has the foundation in place.
    To your point about global parliamentarians and members of 
other legislatures, as you said that, I thought of the North 
Atlantic Treaty Organization (NATO) Parliamentary Assembly, 
which is one of these groups that started during the Cold War 
to bring legislators together. The U.S. Congress used to have a 
much more robust international program also that was run out of 
the Library of Congress that could be brought back. The 
foundations are there.
    I was a national security staffer on the Hill and worked a 
lot on NATO, and it seems to me that right now, for many 
reasons, including information weaponization, that the 
technological and the technical architecture of legislative 
bodies should be considered critical infrastructure and should 
be looked at through a security framework, and certainly 
continuity of government brings it into stark relief. But for a 
lot of different reasons, including security, continuity, and 
access, these are issues that so many countries are facing. 
Even though parliaments are very different than Congress, part 
of the problem is Congress cannot be a parliament, and that is 
one of the reasons it gets stuck when you try to force things 
down on it. But the truth is a lot of these technologies that 
we are talking about have already not only been piloted but 
metabolized into systems of governing. We can take a lot of 
confidence in that they will share it with us. For that 
question, it is important, and I can share those links with 
you, how to get informed daily on it.
    Senator Carper. Thanks so much.
    Mr. Chairman, I have a related question for Dr. Huder, but 
I would be happy to yield at this point to one of our 
colleagues if one of our colleagues is waiting to speak.
    Chairman Portman. Senator Carper, go ahead with your 
question.
    Senator Carper. All right. Thank you.
    A similar kind of question, Dr. Huder, if I could. How 
would a move to remote participation impact the social aspect 
of congressional work and the opportunity to build or at least 
try to build bipartisan coalitions?
    Mr. Huder. I think one of the problems with remote 
participation is typically you only call or reach out in 
instances where you already know somebody. I do not randomly 
call strangers, for example. I meet people and then we exchange 
numbers, and then we build a relationship where phone calls and 
text messages and interaction can be done. I just see it as a 
difficult layer to the process. So much of Congress is face-to-
face interaction. It is members bonding over their dogs. It is 
members talking to one another in the hallway or in the 
elevator. I find that hard to replace in the remote voting 
setting.
    I think that is one of the parts that makes it very 
difficult, is that if you do not have the opportunity for a 
space for members of different parties to co-exist, you kind of 
lose many of those informal touches, so to speak, that build 
those relationships. There has been a lot of anecdotal evidence 
about how air travel, for example, and the changing 
congressional calendar have reshaped the way that Members of 
Congress interact and who they work with. Whether that is part 
of a broader political divide, that is probably partly the 
case; but it is also partly the case that Members of Congress 
just do not socialize as much because they do not live in D.C. 
They do not have common social circles, or their kids do not go 
to the same school anymore.
    A lot of these sort of informal social connections were 
many of the political connections that formed bridges across 
the aisle, and remote legislating as a permanent sense would, I 
think, damage an already damaged situation in that particular 
circumstance. While it is necessary, I do not think it is a 
long-term solution.
    Senator Carper. All right. Ted Kennedy told me a story 
early on in my time in the Senate about how the Senate on 
certain days of the week during the summer would have picnic 
dinners out on The Mall with their colleagues and families. Ted 
Stevens told a great story once that I have often shared with 
others--I will not go into it now--about the fact that he car-
pooled early in his time in the Senate with three other 
Senators--two Democrats, two Republicans. They lived in, I 
think, Northern Virginia. Just the ability to work together 
across the aisle just from car-pooling was pretty 
extraordinary. Thank you very much.
    Chairman Portman. Thank you, Senator Carper.
    I have some technology questions, but I am compelled to 
comment again. I wish Congress operated more the way Dr. Huder 
explained. There is unfortunately not as much interaction as 
there was when I first got elected back in the 1990s in the 
House. Certainly I lament that, but I do not know that remote 
voting is going to make it any worse at a time when we cannot 
otherwise gather. In fact, I think just the opposite; it gives 
us the opportunity to come together, which I think Senator 
Carper would agree it has been a month now since we have had 
any bipartisan interaction of any sort unless members have 
reached out, as I have with Senator Carper and some other 
distinct colleagues, but there has been no interaction. That is 
the reality. It may not be the theory, but that is the 
practical reality.
    One, this is to be used for emergencies only, not to be 
used as a regular procedure, of course. But, two, I think it 
actually has opportunities, remote interaction, to enhance 
rather than limit the interactions we have with our colleagues. 
I think it is a matter of using technology, as so many people 
are today. Probably half the people I represent in the State of 
Ohio are working remotely today, in whole or in part, they are 
teleworking, they are on conference calls with their 
colleagues, but they are interacting with them. At a time like 
this when we cannot be together, I certainly think it is 
appropriate for Congress not just to vote remotely but also 
have more interaction remotely, and I think the technology is 
there and it is very possible.
    Ms. Kelly, I keep telling you I am going to come to you on 
technology, and I am going to dig into this issue and drill a 
little deeper. But I see that my colleague Senator Lankford has 
rejoined us, and I am going to give him the opportunity now to 
ask questions, and I will come back to you. Senator Lankford.

             OPENING STATEMENT OF SENATOR LANKFORD

    Senator Lankford. Great. Thanks, Senator Portman. I 
appreciate that, and I appreciate the dialogue that we have to 
be able to be here in this back-and-forth time period. This is 
exceptionally helpful. It is exceptionally important for us to 
be able to talk through how we maintain this. All of us are 
interacting with constituents. It is almost like a live hearing 
at this point for me, Senator Portman, because I had to step 
out into the hallway to be able to visit with a constituent. 
Literally during this time period, I was stepping into the 
hallway because I was also connecting with a group from the 
panhandle of my State, listening to some questions that they 
had, and then coming right back to this hearing. This is more 
real life happening for us as we are multitasking away from the 
Hill as well as being back all connected on it. But I do want 
to ask some specific questions, though.
    For Marty Gold, there has been a longstanding requirement 
for wet signatures for things for the Parliamentarian and some 
process things like that that require physical presence. In 
your advice, how many things would have to be dealt with for 
dropping a bill, for doing an amendment on a bill, for 
engagement on any kind of changes that would really have to 
have pretty dramatic changes in our back-of-house operation for 
how we actually implement bills and vote on them?
    Mr. Gold. Senator, thank you for that question. You are 
exactly correct. When we start to think about this just from 
the perspective of remote voting and then we begin to extend it 
beyond that to all of the rest of the Senate operations that 
are connected with having a bill become a law, we find all 
manner of rules, precedents, orders, and practices that are 
implicated in this. Somebody is going to have to take a very 
good inventory of all of that to determine what has to be done 
in each case to make sure that you have checked a necessary box 
so you can get the final point of the enrollment of a bill and 
tell the courts that they ought to be deferring to Congress 
because the bill has been properly enrolled and all of the 
necessary steps have been taken to lead to that moment.
    This is exactly the reason why I do not think that the 
Senate should be going about amending its rules without having 
given a lot of study to that question. But for the same reason, 
I do not think the Senate needs to paralyze itself, 
understanding that all those things are out there. In other 
words, you can figure out what it is that you can do at the 
moment and figure out how to put a standing order into effect 
and ask the Parliamentarian what the Parliamentarian believes 
are necessary boxes to check to make that work, see how it 
works, let it sunset or let it be renewed as the case may 
dictate, and then in the meantime determine what it is that you 
need to do on a permanent basis.
    I will say this: Nothing distorts the situation more than 
Congress being absent. That is the biggest thing. Dr. Huder 
made the point about how this empowers the leadership against 
the individual member. I agree with that. I will also say it 
empowers the individual member against the leadership. If you 
have to get unanimous consent to pass something in a pro forma 
session and somebody objects, where are you? Or if you try to 
have a pro forma session and do some business and somebody puts 
a quorum call in and you have not got members around, where are 
you? Or the point I was making in my Statement about the fact 
that many of the Senate procedures require 60-vote thresholds 
to get you from Point A to Point B, like the cloture rule or 
budget waivers or many, many other things, if you are talking 
about 60 out of 100 Senators, that is one thing. If you are 
talking about 60 out of 75 or 80 Senators because you have a 
lot of people absent, that is another thing. Senator Portman 
talked about the absence of Congress and the distortion that 
creates relative to the power of the executive branch and its 
relationship to the Congress.
    The one thing that we know for sure--or there are two 
things that we know for sure. This is suboptimal, and you have 
to see what boxes need to be checked. Then write procedures 
that allow them to be checked. That is one thing you know for 
sure. But the other thing you know for sure is that nothing 
distorts the situation more, including all the personal 
relationships we have been talking about, than for Congress to 
be completely absent.
    Senator Lankford. One of the grand challenges that we have 
is there is a perspective that if only we would allow Congress 
to be able to make a big Zoom call and be able to vote yes or 
no, then this solves the voting issue. One of the things that 
you bring up there that I want to be able to bring up as well 
is this issue there is a lot of back-of-the-house that has to 
be done, and it has to be done legally and appropriately that 
cannot cleanly be done by everybody connecting online and just 
saying ``aye'' or ``nay.'' That is something we are going to be 
able to work through the process on.
    One of the other questions I wanted to be able to ask you 
was the type of bill that should be engaged, because I think we 
all have agreement that this should be extremely limited and it 
should be extremely temporary. We would all say, hey, there are 
moments like this that we should be able to be engaged more. 
But we also know of moments all the way back to 1814 when the 
Capitol was burned down and we had to be able to move offsite, 
for times like 9/11 we moved away, times during wartime and we 
have had limited access. This is not the first time nor will it 
be the last time that we have had time that Congress has not 
been able to meet or has had to look for other places to meet 
or other methods to meet.
    Part of the challenge that we would have with remote voting 
in particular, more so than remote committee meetings, like 
what we are doing right now, or a roundtable, this is 
relatively simple to be able to do. But when you get into 
remote voting and such, it is trying to find what bills should 
be appropriate to do, because it is not uncommon to get into 
the middle of a debate, you get into heated debate on the floor 
on an issue, and suddenly there is a quorum call that just 
basically sets things aside so members can get a chance to talk 
and work out differences. You cannot do that in a remote 
setting the same way that you do at other times.
    Is there advice from anyone that you would be able to raise 
to say, ``In my perspective''--and, again, we will have a 
different one, but ``In my perspective,'' you would say, ``here 
is the type of vote or the type of bill that should be 
addressed in this type of moment and bills that should not be 
addressed in this type of moment?''
    Mr. Gold. That is a wonderful question. I think my own 
sense is that it is very difficult to determine that in advance 
because you do not understand the kind of circumstances that 
will apply at the moment that you have to exercise this power.
    For example, at the moment we are not having to do 
appropriations. At the moment we are not having to deal with 
that. Now, what happens if Dr. Fauci is correct and the 
coronavirus comes back in the fall, particularly, let us say, 
during the time of the lame duck session, which always happens 
after the election, or has in recent Congresses certainly, when 
a lot of legislation that has been left over, big omnibus 
legislation that is left over, now has to be addressed? Perhaps 
it comes back in such a virulent form--nobody knows that now, 
but perhaps it comes back in such a virulent form that it is 
obviously a health hazard for Congress to convene. If you have 
restricted the kind of legislation that can be addressed by 
this mechanism, you may defeat the purpose of the mechanism. 
The purpose of the mechanism is to allow for Congress to 
participate, for members to express themselves, to represent 
constituents, not to just have it funneled through the 
leadership and have it funneled by unanimous consent. Some 
things cannot pass by unanimous consent.
    We do not know the kind of circumstances that may 
necessitate for this to operate. We may be in a posture--or it 
is set up now, and then in the summer months for whatever 
reason it is not necessary, and then the coronavirus or some 
mutation of the coronavirus comes back in the fall, and all of 
a sudden it is very necessary. I would not advise hamstringing 
the kind of legislation ahead of time.
    Senator Lankford. Mr. Chairman, I have one last question.
    Chairman Portman. Absolutely.
    Senator Lankford. I know I am a minute over time, and I 
appreciate that.
    Let me give you an example of this, of a type of vote that 
could occur. As any Congress, any Senate especially needs to 
do, we have both legislation and personnel. We have nominations 
that need to occur. We are very behind on nominations right now 
both because we have been out of session for a month and just 
the slowdown in the nomination process in general over the last 
several years. Should it, for instance, be appropriate to say 
we are going to come back into session, we are in remote, we 
are going to try to get through 20 different nominations in the 
course of the day today in 2-hour voting blocs, we are going to 
continue to be able to just move 24 hours a day moving through 
nominations, even though we are not physically at that point to 
be able to have a moment like that? Would you consider that to 
be appropriate? Should there be appropriate guidelines or 
boundaries that are set for that type of voting as well?
    Mr. Gold. Senator, I know that there will not be partisan 
agreement on this point. I know that. But my own sense is that 
that is a constitutional responsibility of the Senate. It is a 
constitutional responsibility to deal with advice and consent 
to treaties, and it is a constitutional responsibility to deal 
with legislation. In other words, I do not think that the 
constitutional responsibilities of the Senate should be hived 
off from one another, say that these responsibilities can be 
addressed and those responsibilities cannot.
    I think that you would probably be better off if you had 
some sort of agreement between the leadership on how you were 
going to exercise those responsibilities. But just as I do not 
think that there is a particular piece of legislation that 
ought to be hived off, I also do not think there is a Senate 
function that should be hived off, even though, for purposes of 
comity, it is probably better off to get some kind of 
understanding between the leadership on what the Senate will do 
while it is operating in suboptimal circumstances.
    Senator Lankford. Great. Thank you.
    Mr. Chairman, thank you for allowing me to ask one last 
question. I appreciate that.
    Chairman Portman. Let me say that the other challenge we 
face right now where we have not been able to gather for a 
month is that we have nominations, as Senator Lankford has 
talked about, but specifically nominations related to COVID-19. 
We have 
executive branch nominees that are needed for a response to 
COVID-19 who are not controversial particularly, where there 
would not be, I do not believe, much partisanship around them. 
Yet we cannot move on them because we are not able to remote-
vote or even remote-discuss. As I said earlier, we have not had 
any such sessions.
    Let me, if I could, Ms. Kelly, ask you a couple technical 
questions, as I said, dig a little deeper here, and then I am 
going to ask Senator Carper for his thoughts as we begin to 
wrap this up. I know everyone has other responsibilities, and 
we said we would get you out of here before 11 a.m.
    With regard to security, what technical requirements would 
you think are necessary for a platform that Senators would use 
to vote remotely?
    Ms. Kelly. I am not a computer scientists or a technical 
expert. I have run with a lot of techies who can answer your 
question in great detail. I do know, however, that our access 
to expertise is very significant and that a lot of the folks 
especially in D.C. who have worked on this have set up whole 
systems for the executive branch, including the Department of 
Defense (DOD).
    I was looking at a Research and Development (RAND) 
Corporation paper the other day on Central Intelligence Agency 
(CIA) telecommuting where they had to create some kind of a 
sensitive compartmented information facility (SCIF) in their 
home office. I think that there are interesting ideas coming 
out of the House. I heard one which would be to make use of the 
Federal Bureau of Investigation (FBI) local offices or military 
facilities in States and districts. I think those are good 
short-term possibilities.
    I do know also that there are real constitutional 
challenges in using things like a common cloud. Security for 
Congress has to be almost a bespoke system. It is probably one 
of the reasons why we have not built one yet. It is very 
expensive, and you can only sell one. I think that is one of 
the challenges. That does not excuse us not having moved ahead 
on building a modern technology system for Congress.
    One of the places I would also refer you to as you move 
forward is the Select Committee on Modernization in the House. 
That Committee has--25 percent of its members are from 
Washington State, and there is something in the DNA or in the 
water in Washington State that makes it such a tech-literate 
civic society. I think that that would be a place to turn. I 
know that Suzan DelBene, Derek Kilmer, Mr. Newhouse, they 
continually brought up--because I sat through all of the 
hearings over the last year and a half, 16 hearings. This was 
an issue that came up continually.
    As for security in remote voting, I would suggest looking 
at the link that I put in my written testimony to the 
Parliament of Brazil, which actually for years now has had a 
hacker lab inside the parliament, which, in other circumstances 
when there was not a pandemic, has experimented throughout the 
chambers with methods and really got, like Mr. Gold was saying, 
sort of a digital mimic of really specific functions and niche 
needs. I think that that is the kind of thing that we can do 
now. Maybe we need something like a chamber challenge. 
Challenges are very typical in technology. It is crowdsourcing 
ideas. I think you could crowdsource ideas within the Senate 
and the House themselves and share lessons learned in some kind 
of a cross-chamber repository.
    To another point that you brought up, I think something 
that we do not know yet, because it is not visible, is that 
there is a really large sort of invisible constituency out 
there for explanation and collaboration and moving forward and 
kind of--I call it like a ``maker space of modern civics,'' is 
the States. I did all this district research in States and 
districts for 18 months, and I was just amazed at what citizens 
are coming up with in collaboration with their elected leaders, 
certainly in Congress. The Ohio State University is like the 
mother ship of a lot of this innovation. I have partners at the 
Ohio State University. You have Kettering in Dayton. You have 
really amazing infrastructure already to help us sort of dig 
ourselves out of this civic memory hole that we have been in.
    I would also recommend this article that is probably 8 
years old now called ``Interested Bystanders.'' It was a 
collaboration between, I think, Google Civics and--I am trying 
to remember--an individual named Kate Krontiris, who is a civic 
researcher. It really talked about sort of the reorganization 
of civics and how much more sort of interpersonal and 
individualized people desire to interact with their government. 
It is really a beautiful kind of iteration of what we already 
have, and so I want you to have courage and know that there is 
a lot going on out there, but we have not named it yet. It has 
everything to do with how we are going to organize ourselves 
now going forward, to tap those resources. They are there, and 
I would be happy to share the ones I know. But I think if we 
make a place for them to show up--so it is not just about a 
vote, but it is about a voice. That is why I think that I am so 
interested in the deliberative process, which is how do we 
reimagine committees during this time and maybe we can pull 
some of our new best practices out and continue forward with 
them when we can show up in person again.
    In any case, I can find you the people to answer the very 
specific technical questions, but I hope that you continue on 
with this concern for renewing civics, because I think it is 
there.
    Chairman Portman. Great. Thank you, Ms. Kelly, and I will 
say those people have found us, and we have found them, and 
some of them are actually associated with Georgetown 
University, as you know, Dr. Huder. I wrote an op-ed in the New 
York Times with one of those technical experts 2 days ago along 
with Senator Durbin. We are working with outside groups that 
have some very strong views on this, and there are different 
platforms. We are focusing on two things, really: just 
authentication that it is the right person, verifying that, and 
this is done in financial transactions all over the world; and 
then encryption to be sure that it cannot be hacked, that it is 
safe.
    We think, as you said in your opening statement, this is 
not so much a technical challenge; it is, you said, I think, an 
emotional and psychological challenge. I think that is the 
issue. It is just tradition. It is hard to leave tradition.
    All of us want to be together when we can be together. The 
question is: When you cannot be together, how do you perform 
your necessary functions? I would say on top of that I think 
technology and remote interaction can actually improve how 
Congress operates even outside of a crisis, not for voting but 
just for interaction, as we have done today, which I think has 
been very positive.
    With that, I would like to turn back to Senator Carper for 
any additional questions and for his closing comments. Again, I 
appreciate his partnership in this venture, as we have 
partnered on so many other things together. I think this has 
been a very useful exercise. Senator Carper.
    Senator Carper. Mr. Chairman, I perked right up when Ms. 
Kelly mentioned Ohio State University.
    Chairman Portman. Yes.
    Senator Carper. As the Chairman knows, I spent 4 years 
there as a Navy ROTC midshipman right in the middle of the 
Vietnam War and have a great fondness and connections and go 
back there from time to time. I have now one more reason to go 
back, and, Ms. Kelly, I think you have called Ohio State the 
``mother ship.'' Folks in Ann Arbor call us different things, 
not quite that kind. But thank you for that piece of 
information.
    I have been jotting down, Mr. Chairman, colleagues, and to 
the witnesses, I have been jotting down every now and then when 
someone says something that I think is especially relevant or 
important, and I want to mention some of those as we wrap up 
here. One of the things I jotted down is the technology that we 
are talking about should not be used routinely necessarily, 
particularly when we are voting, but if we used it basically in 
emergencies and to at least make sure to do it with that in 
mind.
    I also wrote down that the idea here is to enhance 
interpersonal relationships, not to diminish them. I mentioned 
earlier Vice President Biden's admonition that all politics is 
personal, all diplomacy is personal. I think that is true. The 
idea, as we embrace the technologies that we are talking about, 
is to do so in a way that enhances interpersonal relations and 
interaction.
    One other comment I wrote down was ``extremely limited'' 
and the word ``temporary.'' I wrote down that nothing distorts 
the process more than for Congress to be completely absent, and 
I would certainly agree with this.
    Another comment, for the purpose of that comment, is to 
enhance the ability of Congress to enhance the ability of 
Congress to participate, not to diminish it.
    I am going to ask in closing for each of our witnesses to 
give us one or two bullet points, very short admonitions of 
maybe what to do and not to do as we prepare to wrap up. But 
this has been fascinating, and, Mr. Chairman, you are known by 
all of us as a very thoughtful, reasonable, and nonpartisan 
Member of the Senate who focuses on getting things done and who 
is not unwilling to take on difficult issues, and this is not 
an easy one either.
    Maybe I could wrap it up and ask each of our witnesses--and 
we will start with Marty Gold, if you will--just one or two 
things that you would like to leave us with. When we were in 
our training courses, going through the preflight or flyover 
missions, happened to be in classes for those purposes, at some 
point in a lecture or presentation to us as ensigns and 
midshipmen, they would come to a point that was a really 
relevant point that was going to be on the test, if you will, 
they would stomp their feet. But we are not going to know today 
if you were stomping your feet, but if you were, give us a 
couple of foot stompers as we prepare to close out things; if 
you do not remember anything else, remember this. Ms. Kelly, 
would you start us off, please? You are there in the pick-up.
    Ms. Kelly. In the pick-up, yes.
    Senator Carper. What is the area? New Mexico?
    Ms. Kelly. I am in the Four Corners in New Mexico. This is 
where I am from. This is where I grew up.
    Senator Carper. Oh, wow.
    Ms. Kelly. But I made it to D.C. My thoughts, as you were 
talking, are that this is a crisis, but it is also a tremendous 
long-term opportunity. What I would suggest is let us ask the 
tech industry for help. Let us ask them to--like we did in the 
1930s and 1940s, put aside these immediate short-term profits 
and go for an Eyes on the Prize movement forward, a meta 
challenge for all of us, but especially for the technology 
industry. I like to call this sort of a moment that we have an 
Article I renaissance. We could come out of this with a renewed 
understanding of how important the first branch of government 
is. The first branch of government owns the real estate of 
democracy. It really does, far more than the executive. We can 
do this. We have the bone structure. A lot of it is just 
rethinking it and bringing it into the modern era.
    This has been true for decades at this point, so I do not 
want to lose that. I know we are in a crisis, but we have 
already got momentum, the fact that we have this continuity 
working group together, it has this great group of people 
working here on this panel today, people who have thought about 
these challenges already and can bring their skills to bear 
right now. Let us not forget that this is our moment to have 
this renaissance in Article I and to move forward into the 21st 
century at long last as a much improved democratic system.
    Senator Carper. Your words, Ms. Kelly, remind me of 
something that Albert Einstein used to say: ``In adversity lies 
opportunity.''
    Ms. Kelly. That is right.
    Senator Carper. There is plenty of adversity here, so there 
has to be some opportunity as well. I think it was Rahm Emanuel 
who came up with it, saying, ``Never waste a good crisis.''
    Ms. Kelly. That is true, too. [Laughter.]
    Senator Carper. Those words of wisdom come to mind at this 
time. So thanks so much.
    Ms. Kelly. Yes.
    Senator Carper. Dr. Huder, please?
    Mr. Huder. I want to thank the Chairman and Ranking Member 
for gathering us together today. We are in a very difficult 
moment right now as a country, and this is a very important 
issue, how Congress continues to function when health risks 
emerge and it literally cannot convene under normal 
circumstances. Holding this hearing is in many ways a 
validation that it can work, it can continue to operate in 
these difficult moments, and it is important that we continue 
to draw attention to the ways that Congress can continue to 
operate.
    Senator Carper. All right. Thank you. Marty Gold, please.
    Mr. Gold. Thank you, Senator. I would emphasize the 
importance of being willing to experiment with new things. The 
Senate is a venerable institution. The Senate changes very 
slowly, as you know. The ``Continuing Body'' does not tend to 
adapt itself much to new circumstances and so forth. But I am 
reminded of the television in the Senate and the controversy 
that that caused when it first came up. It was originally 
proposed by Senator Mansfield for use in the Nixon impeachment 
trial that never happened. It was adopted for one moment in 
1974 when the Senate swore in Nelson Rockefeller as Vice 
President, and then the place was dark again for more than a 
decade.
    The House of Representatives put in television in 1979, and 
when Senator Baker, my old boss, became Majority Leader of the 
Senate, he proposed it in 1981, and, boy, was that resisted. It 
was resisted for 5 years past the time that he actually served 
in office until finally, in 1986, Senator Dole and Senator 
Robert C. Byrd, the two Leaders at the time, put in the 
television in the Senate resolution, and then on an 
experimental basis. It was only after it was in effect for 
several months that the Senate finally decided to proceed with 
it. To tell you the truth, that entire experience, the decade 
between Mansfield's proposal and the final implementation of 
television, is very much emblematic of the Senate. It moves 
slowly. But if the Senate had not been willing to experiment 
with that, think of where we would be today where the public 
would regard the Senate, I think, as an artifact of the 
Constitution rather than a central part of the government.
    The Senate needs to experiment with this, and I would very 
much encourage it along the lines of the commentary that has 
been made this morning.
    Senator Carper. Thank you. Thank you all.
    Mr. Chairman, if I could, I would like close on a humorous 
note. We have legislative correspondence, as my colleagues 
know, each of us has legislative correspondence we respond to, 
to the people who contact our offices. It used to be we would 
reply to mail that we would get, and I am a welcome advocate in 
making use of the U.S. Postal Service (USPS). I think my 
colleagues, especially in rural parts of our country, 
[inaudible]. But I asked my mail team, the so-called mail 
team--and it is comprised of four women. Their supervisor is 
this fellow named Kevin, and Kevin has come to describe these 
four women as the ``ladies of the quill.'' The ladies of the 
quill, it turns out, use modern technology to respond not so 
much to the mail we get like they used to about 20 years ago, 
but for every email we receive, [inaudible]. Last month, 
[inaudible] for every letter that we get--and there are 
something like 500 emails for every one letter. In fact, the 
people who contacted me, all due respect to the Postal Service 
now, it is important to support the Postal Service, they are 
not doing that through snail mail. They are doing it through 
email. We have changed very much the way we communicate with 
our constituents. In fact, we communicate [inaudible] better 
for them and maybe even do their jobs more effectively.
    I want to close by saying when I first got here to the 
Senate, I had somebody say, well, we [inaudible]. The world 
changes, and we need to be able to change with it. My hope is 
that as we go down this path, we do so in a way that 
[inaudible] it has been a real comfort, and I think maybe if we 
are smart about it [inaudible].
    I just want to thank our friend and colleague Rob Portman 
in particular [inaudible] for bringing this together and 
bringing in [inaudible]. It is great to see all of you. 
[inaudible].
    Chairman Portman. Thank you, Senator Carper. I appreciate 
it. To the point of things are changing, we had another 
Facebook live town hall yesterday. We have done one every week 
during this month-long absence from Washington. And, that is 
where people are. They are online. The interaction we are 
talking about with Members of Congress that could be enhanced 
through technology in my view, even outside of a crisis, also 
relates to our constituents, of course, and our ability to 
communicate with them could be enhanced through not just remote 
voting and remote governance but remote participation as we 
have had today.
    First of all, I want to thank all of our witnesses. This 
has been a tremendous opportunity to glean from your expertise, 
your knowledge, and your backgrounds. To Marty Gold, thank you. 
As usual, you have your foot firmly planted on the traditions 
of the Senate but also how to move forward and make the Senate 
more effective. As you said, it moves slowly, but we have made 
a lot of changes. You were not around before the filibuster, 
but think what a big change that has resulted in.
    Ms. Kelly, thank you very much for your focus on the 
technological opportunities here.
    Dr. Huder, thank you very much for your willingness to 
share with us some of your concerns about the need for us to do 
this in a way that results in more not less interaction so that 
we are not going further down this track of Congress being 
polarized. I think those were very good points. I thought the 
opening statements were great, but also, as I told you, you 
will have the opportunity to make a longer statement for the 
record, which you will have online.
    By the way, to that point, I would urge everyone who is 
watching today or listening today, check out the report.\1\ 
This is a bipartisan Permanent Subcommittee on Investigations 
(PSI) report. As Senator Carper will tell you, we try to do 
things together, and, we have come up with a consensus document 
that I think is very helpful. When you think about this issue 
broadly, you will see a lot of the issues we discussed today 
outlined and additional issues as well. You can find it on 
hsgac.senate.gov. ``HSGAC'' is the name of the Committee. That 
is H-S-G-A-C dot Senate dot gov. So hsgac.senate.gov. Go to the 
PSI link. That is the Subcommittee that we are in currently. So 
hsgac.senate.gov, and then the PSI link to find the report.
---------------------------------------------------------------------------
    \1\ The memorandum referenced by Senator Portman appears in the 
Appendix on page 61.
---------------------------------------------------------------------------
    Senator Carper, thank you again for being a great partner 
today and showing how we can function even during a national 
crisis. I look forward to the time when both of us can be back 
together in the hearing room and working on our other PSI 
projects, as we have many that are in the works. Meanwhile, I 
think this was a very successful experiment, and it is an 
example of what can happen. It is really a Senate first, and I 
hope it will be one that other committees and subcommittees 
will look at as an example of what we can do, even at a time 
when we are not able to gather physically.
    I also want to thank the Senate staff who made this 
possible. Karl Jackson and the Senate Recording Studio team, 
thank you all very much. Thanks for dealing with our challenges 
as we have worked through this the last couple weeks. As I 
said, this technology is off-the-shelf Senate technology, so it 
is available to others, but it is one that we had to perfect, 
and we thank you for your work on that.
    I also want to thank all the other staff who have been so 
helpful: Dan Muchow--we heard from Dan earlier--has been 
terrific. Kate Kielceski--she is not going to cut me off 
because I am only going to say nice things about her. But, 
seriously, Kate has done a great job in monitoring this today. 
Also, of course, our team--Amanda Neely, Sam Mulopulos, Andy 
Dockham, John Yaros, and others--we want to thank you. Senator 
Carper and I appreciate all of you helping to make this happen. 
This is an opportunity for us to show what can be done through 
technology and specifically today to get more information out 
there about remote voting, and I think we have come up with 
actually some very good principles that ought to apply not just 
in this situation--as Mr. Gold has said, this may be replicated 
down the line, sadly--but in all situations, to have that tool 
in the toolbox in case it is needed to ensure that the 
legislative branch, the Article I branch, as was said, the 
first branch, has the ability to continue to express itself.
    Thank you again. Thank you, Senator Carper and all the 
witnesses, and I look forward to seeing you all in person soon.
    This roundtable is adjourned.
    [Whereupon, at 11:03 a.m., the Subcommittee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre></body></html>
